<html>
<title> - MODERNIZING HEALTH RECORDS FOR SERVICEMEMBERS AND VETERANS: THE CONTRACTOR PERSPECTIVE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
    MODERNIZING HEALTH RECORDS FOR SERVICEMEMBERS AND VETERANS: THE 
                         CONTRACTOR PERSPECTIVE

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON TECHNOLOGY MODERNIZATION

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         TUESDAY, JUNE 4, 2019

                               __________

                           Serial No. 116-15

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
       


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                          ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 40-768              WASHINGTON : 2021         
        
        
        
                     COMMITTEE ON VETERANS' AFFAIRS

                   MARK TAKANO, California, Chairman

JULIA BROWNLEY, California           DAVID P. ROE, Tenessee, Ranking 
KATHLEEN M. RICE, New York               Member
CONOR LAMB, Pennsylvania, Vice-      GUS M. BILIRAKIS, Florida
    Chairman                         AUMUA AMATA COLEMAN RADEWAGEN, 
MIKE LEVIN, California                   American Samoa
MAX ROSE, New York                   MIKE BOST, Illinois
CHRIS PAPPAS, New Hampshire          NEAL P. DUNN, Florida
ELAINE G. LURIA, Virginia            JACK BERGMAN, Michigan
SUSIE LEE, Nevada                    JIM BANKS, Indiana
JOE CUNNINGHAM, South Carolina       ANDY BARR, Kentucky
GILBERT RAY CISNEROS, JR.,           DANIEL MEUSER, Pennsylvania
    California                       STEVE WATKINS, Kansas
COLLIN C. PETERSON, Minnesota        CHIP ROY, Texas
GREGORIO KILILI CAMACHO SABLAN,      W. GREGORY STEUBE, Florida
    Northern Mariana Islands
COLIN Z. ALLRED, Texas
LAUREN UNDERWOOD, Illinois
ANTHONY BRINDISI, New York
                 Ray Kelley, Democratic Staff Director
                 Jon Towers, Republican Staff Director

                SUBCOMMITTEE ON TECHNOLOGY MODERNIZATION

                     SUSIE LEE, Nevada, Chairwoman

JULIA BROWNLEY, California           JIM BANKS, Indiana, Ranking Member
CONOR LAMB, Pennsylvania             STEVE WATKINS, Kansas
JOE CUNNINGHAM, South Carolina       CHIP ROY, Texas

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.

                            C O N T E N T S

                              ----------                              

                         Tuesday, June 4, 2019

                                                                   Page

Modernizing Health Records For Servicemembers And Veterans: The 
  Contractor Perspective.........................................     1

                           OPENING STATEMENTS

Honorable Susie Lee, Chairwoman..................................     1
Honorable Jim Banks, Ranking Member..............................     2

                               WITNESSES

Mr. Travis Dalton, President, Cerner Government Services.........     5
    Prepared Statement...........................................    29

        Accompanied by:

    Mr. David Waltman, Vice President, Strategy and Technology 
        Cerner

    Ms. Julie Stoner, Director and Client Accountable Executive 
        Cerner
Mr. Jon Scholl, President, Leidos Health Group...................     6
    Prepared Statement...........................................    30

Mr. Richard Crowe, Executive Vice President, Booz Allen Hamilton.     8
    Prepared Statement...........................................    33



    MODERNIZING HEALTH RECORDS FOR SERVICEMEMBERS AND VETERANS: THE 
                         CONTRACTOR PERSPECTIVE

                              ----------                              


                         Tuesday, June 4, 2019

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittees met, pursuant to notice, at 2:40 p.m., in 
Room 210, House Visitors Center, Hon. Susie Lee presiding.
    Present: Representatives Lee, Brownley, Lamb, Cunningham, 
Banks, Watkins, and Roy.

           OPENING STATEMENT OF SUSIE LEE, CHAIRWOMAN

    Ms. Lee. Okay. Good afternoon, everyone. This hearing will 
now come to order. I would like to welcome you all here, 
welcome Ranking Member Banks.
    And I wanted to start first with an opening statement. 
Today, the Subcommittee on Technology Modernization will hold 
the first in a series of hearings on the implementation of the 
electronic health records at the Department of Veterans 
Affairs. This effort, known as EHRM, is projected to take at 
least 10 years and cost $16 billion. To say it is a major 
undertaking is an understatement.
    It has the potential to transform health care for our 
veterans and to finally realize the goal of having one seamless 
lifetime health record for our servicemembers as they 
transition from the military to veteran status; however, this 
effort also has the potential to fail. VA, unfortunately, does 
not have a great track record when it comes to implementing 
information technology. Decades of oversight by the Government 
Accountability Office and the Inspector General have documented 
a troubled history of failed IT projects, including several 
failed attempts at a modernized electronic health record.
    At the Subcommittee's hearing on April, I asked the IG and 
GAO what it would take for the VA to be successful and it 
really comes down to two things: management and leadership. 
VA's inability to manage IT programs and have accountable 
leadership has plagued many of its recent IT efforts and it 
threatens EHRM. The lack of an accountable joint governance 
structure between the VA and DoD also threatens the success of 
this project.
    After months of requesting information, we have yet to 
receive anything of substance about a proposal to address the 
non-functioning interagency program office. What we have heard 
is not promising. It sounds like it is the status quo with a 
new name.
    Congress first mandated an interoperable health record in 
2008 and it is beyond time for the Department of Defense and 
the VA to have a fully functioning health record systems that 
can talk to one another and support seamless health care. 
Seamless health care is what this effort really is about, and 
it is more than any one system, contractor, or agency. It is 
not about the technology, but about the human interaction with 
the technology.
    The system we are spending at least $21 billion on at both 
the departments is merely a tool that will allow clinicians and 
others to provide the best possible health care experience to 
those that served our country. We owe them nothing less.
    Because this mission is so important and because taxpayers 
have made and will make a significant investment in it, this 
Subcommittee owes it to veterans we serve to ask difficult 
questions and demand full answers at every step of this 
project. We need leadership to be transparent about the 
challenges and accountable for their decisions.
    Additionally, we are aware that there is some rhetoric out 
there about speeding up the EHRM implementation, but I want to 
be very clear that I do not share the opinion that we should 
move faster for the sake of moving faster. We should, instead, 
spend the time getting it right at the initial sites in the 
Pacific Northwest before we move on to other implementation 
stages.
    This spring I spent some time at the Madigan Army Medical 
Center and heard from frontline staff about the problems that 
were experienced when things like testing and training were 
rushed. Further, I visited the Seattle VA and saw the very 
serious infrastructure issues there that threaten or delay or 
to derail the implementation.
    There are many lessons to be learned from the DoD rollout 
of MHS Genesis, including obvious pitfalls that need to be 
avoided by the VA. This Subcommittee will be conducting 
oversight of all of these things.
    For the first time, and thank you very much, we have the 
major contractors involved in both, the VA and DoD efforts 
before us. I am pleased that we can make this happen, because I 
believe it is a real opportunity to examine these programs from 
every perspective and ensure their successful implementation.
    Cerner, Leidos, and Booz Allen Hamilton are part of the 
day-to-day efforts of the EHRM at the DoD and VA and they know, 
intimately, the lessons learned, and they are helping prepare 
for the potential problems ahead. I know we all want the MHS 
Genesis and the EHRM to succeed for our servicemembers, 
veterans, their families, and taxpayers, and I hope we use this 
opportunity to figure out how we get these IT projects right.
    I thank all of the witnesses for being here and I look 
forward to their testimony. I would now like to recognize my 
colleague, Ranking Member Banks for 5 minutes to deliver any 
opening remarks that he may have.

         OPENING STATEMENT OF JIM BANKS, RANKING MEMBER

    Mr. Banks. Thank you, Madam Chair.
    I am pleased to be back here with you to discuss VA's 
Electronic Health Record Modernization, EHRM program. It has 
been just over 1 year since VA awarded its primary EHRM 
contract to Cerner. I continue to believe this program is so 
large and important, not just for our veterans, but also for 
American health care. The status report should happen in 
public. My goal today is to make sure that one is provided.
    We are still in the middle of the beginning, but vague 
conceptual notions are becoming pressing questions and 
decisions with real impacts on people's lives. VA's first site, 
the Mann-Grandstaff Medical Center in Spokane is scheduled to 
go live with the Cerner EHR less than 1 year from now. There is 
an even earlier deadline right around the corner.
    The councils of employees who are test-driving the Cerner 
her and designing the new workflows are scheduled to finish 
their meetings in September. These 18 councils are each at very 
different points in their respective processes. Some are still 
near the beginning, while others are ahead of expectations. 
September through March 2020 will be an intensely active period 
while milestone after milestone must be completed in quick 
succession. The risk of delay is very real.
    Some of my colleagues who do not sit on this Committee have 
expressed frustration with the length of the site-by-site 
implementation. No delay is ever welcome, but taking a few 
extra months to get its right is imminently preferable and 
responsible, compared to cutting corners or rushing a half-
baked system into use in order to avoid criticism. The reality 
is the performance of this Cerner EHR and VA's initial 
operating capability sites will determine the course of the 
rest of the program, including in all likelihood, whether it 
continues at all.
    Much has changed since our last EHRM hearing. VA and Cerner 
have agreed to an ambitious data-migration plan that hinges on 
repurposing Cerner's HealtheIntent population health software. 
I have some questions about how this will actually work.
    VA has demonstrated some impressive use cases in connecting 
to external apps through the API gateway. The most high-profile 
success is enabling veterans to access their records through 
Apple Health. This sort of capability would have cost the 
Department hundreds of millions of dollars to develop in the 
past, but the partnership was accomplished in about a year for 
a tiny fraction of that. I suspect that there may be some more 
big app partnerships in the near future.
    On the other hand, some things haven't really changed at 
all. Interoperability with the community providers is still the 
elephant in the room. Cerner has some strong interoperability 
offerings inside and outside of the EHR, but millions of 
veterans already get care in the community and no matter how 
long or short the site-by-site implementation may be, they 
rightfully expect their records to follow them.
    The MISSION Act, which is only 2 days away will streamline 
community care administratively. We need a comparable solution 
to deploy the interoperability technology in months, not years, 
and nationwide, not place by place. We can do better than 
repackaged email or fax.
    Relatedly, beyond some platitudes, no innovation strategy 
has been articulated. The Cerner contract contains an 
innovation line item, but it is the smallest line item in the 
contract, and it has not yet been touched. Cerner has a multi-
hundred-million-dollar research and development budget and VA 
will make up about a quarter of the company's revenue in a few 
years. The Government negotiated extraordinary data rights in 
this contract, but I am still eager to hear how all of this 
investment is supposed to translate into some specific 
advancement to solve VA's specific problems.
    I understand the desire to get the basic EHR in place 
before turning to innovation. That reflects caution and 
modesty, which are both admirable. But it is very important to 
me, and I hope to the rest of this Committee, that innovation 
does not get neglected.
    Finally, in addition to an extraordinarily number of 
decisions to be made, there are bound to be many unforeseen 
issues that will arise that will test the management structures 
that VA, DoD, and these companies have in place. I wish I could 
say I have more confidence in those management structures.
    VA and DoD opted for a single, common system, but after 9 
months of haggling and jockeying for power, a suitable, single, 
common-management structure has still not yet emerged. 
Frustratingly, the Departments have refused to share virtually 
any information with Congress.
    In the absence of a comprehensive solution, the technical 
personnel at EHRM and MHS Genesis have put together some 
effective coordination mechanisms; however, that is unlikely to 
be sufficient to address clinical questions or resolve 
programmatic disputes.
    I appreciate our witnesses from Cerner, Leidos, and Booz 
Allen Hamilton, being here to speak to us directly about these 
issues. Next week, we will hear from the VA and DoD witnesses 
about your work, as I am sure we will do many more times, but 
this is your opportunity here to give us your perspectives and 
I appreciate that very much.
    With that, Madam Chair, I yield back.
    Ms. Lee. Thank you, Mr. Banks.
    I would now like to introduce the witnesses we have before 
the Subcommittee today. Travis Dalton is the President of 
Cerner Government Services, which is leading the health record 
modernization effort at the VA and is a subcontractor on the 
DoD effort. Mr. Dalton is accompanied by David Waltman, Vice 
President for Strategy And Technology, and Julie Stoner, 
Director and Client Accountable Executive.
    Jon Scholl is the President of Leidos Health Group, which 
is the lead integrator for the DoD implementation of MHS 
Genesis. Leidos also has a role in the VA effort as a 
subcontractor.
    And, finally, Mr. Richard Crowe is an Executive Vice 
President at Booz Allen Hamilton, which has a contract to 
support the EHRM program office.
    We will now hear the prepared statements from our panel 
Members. Your written statements, in full, will be included in 
the hearing record.
    Without objection, Mr. Dalton, you are recognized for 5 
minutes.

                   STATEMENT OF TRAVIS DALTON

    Mr. Dalton. Thank you, Chairwoman Lee, Ranking Member 
Banks, and distinguishing Members of the Committee.
    My name is Travis Dalton. I am the president of Cerner 
Government Services. Appearing with me are David Waltman and 
Julie Stoner from Cerner. We thank you for the opportunity to 
be here today and for your continued support of the Department 
of Veterans Affairs' Electronic Health Record Modernization 
program.
    Just over a year ago, VA partnered with Cerner to 
proactively transform care for veterans and help them lead 
longer and healthier lives and we remain honored and humbled to 
be a part of this mission and we have assembled a world-class 
partnership to deliver it. EHRM is not just about technology; 
it is about transformation at scale. We realize the size and 
complexity of the VA. This won't be easy, but it is achievable, 
and we are making progress.
    This program will ensure a lifetime of seamless care for 
veterans and servicemembers across the Department of Defense, 
VA, and community providers. VA has a long history of 
innovation and excellent care for all of those who have served 
us. We are building on that foundation together.
    This project will give providers the right tools and data 
at the right time to make the right decision. With EHRM, 
servicemembers and veterans will no longer have to carry stacks 
of paper. Providers will have access to the veteran's record 
wherever they deliver care.
    Using advanced analytics and decision support, we will be 
able to identify, diagnose, and manage chronic conditions, 
combat suicide, opioid, and substance abuse through 
interoperability and workflow tools, operationally move from 
130 disparate systems to one open, modern integrated system 
that is easier and more efficient to update and maintain. It 
won't happen overnight, but we can and will achieve these goals 
together.
    This undertaking is immense. It carries a risk and we don't 
take the challenges lightly. We must deploy at over 1,700 
sites, train over 300,000 VA employees, collaborate with DoD, 
interoperate with the community, aggregate decades of clinical 
data, and update technology. The only way to get there is for 
us to work together: VA, DoD, all of you, our partners here 
today, VSOs, and other stakeholders.
    We are on the right track. We have confidence in Mr. John 
Windom in his leadership of this effort at the VA. That has 
been imperative to our progress. Some examples of that progress 
include, we have established 18 councils made up of VA care 
providers, nationwide center experts, industry leaders, and 
DoD. The councils have completed 5 of 8 national workshops. 
They are making decisions, setting standards, and bringing best 
practices to the table.
    We created an advanced learning academy. Along with Booz 
Allen, we have a robust team in the Pacific Northwest. We have 
completed 18 of 19 road shows to engage providers and we have 
migrated 23 million veterans' health records into the Cerner 
data center. VA and the DoD health data are in the same system.
    We are impressed with the dedication, spirit, and passion 
of the providers we work with inside VA and DoD. We are humbled 
by the opportunity to be in VA medical centers and to interact 
with providers and veterans receiving care.
    This is personal for many of you. I know it is for me. We 
can do this, but it will take all of us working closely 
together. On behalf of Cerner, we are honored to be a part of 
it.
    Thank you, and I look forward to the discussion today.

    [The prepared statement of Travis Dalton appears in the 
Appendix]

    Ms. Lee. Thank you, Mr. Dalton.
    Mr. Scholl, you are now recognized for 5 minutes.

                    STATEMENT OF JON SCHOLL

    Mr. Scholl. Thank you, Chairwoman Lee, Ranking Member 
Banks, and Members of the Subcommittee. Thank you for the 
opportunity to provide a contractor's perspective on 
modernizing the health records at the Department of Defense.
    My name is Jon Scholl. I am the president of the Leidos 
Health Group. We are the prime contractor for the DoD Health 
Management System Modernization, also known as DHMSM.
    On a personal note, I graduated from the Naval Academy. I 
am a former submarine officer who deployed to the Western 
Pacific. I have children and a spouse who have been treated in 
the military health system. I have a son who served in the 82nd 
Airborne in Afghanistan and depends on VA services for service-
related injuries. So, this mission of health records and 
interoperable solutions is very personal for me, as it is for 
many others on my team who have served or have family members 
that served.
    With me today is my senior team associated with this work. 
Debbie Opiekun is the senior vice president for Federal health; 
Doug Barton is the chief technology officer for the health 
group and chief engineer of the DHMSM program; Dennis Nihiser 
is a senior program manager for DHMSM; and Rob Thomas, the 
acting deputy president for the health group.
    To best encourage teaming and sharing lessons within and 
across the DHMSM team, we created the Leidos Partnership for 
Defense Health, which consists of four core partners: Leidos, 
Cerner Corporation, Accenture, and Henry Schein One, as well as 
many other supporting businesses. Together, we are developing 
an integrated, modern, and secure health information system 
that includes an electronic health record system, a dental 
system, identity management capability, cybersecurity, and 
other supporting components. This integrated system is calls 
MHS Genesis and it will provide a solution for managing the 
health and readiness for the DoD, ultimately, the VA, and the 
U.S. Coast Guard.
    Although information sharing is possible today between the 
DoD and VA, it is limited by the fact that these organizations 
have operated systems that are mostly independent from one 
another, largely requiring view only, and some patients still 
carry paper medical records as they move between organizations. 
We know this is a significant frustration to many and, 
appropriately, Congress has directed the agencies to fix this 
longstanding problem. MHS Genesis is ultimately incorporating 
VA-essential requirements is the solution.
    I can assure you that from initial contract award until 
now, we have learned a lot and we will continue to learn. I am 
pleased to be with you today to share some of the insights we 
have gained.
    We work extremely closely with our DoD customer and the 
partnership is committed to executing three equally important 
objectives: one, deploying MHS Genesis on time and on schedule; 
two, continually improving the implementation of MHS Genesis 
based on lessons that we have learned; and, three, successfully 
modernizing the delivery of health care in the military health 
system.
    MHS Genesis is well underway to transforming how health 
care is delivered to nearly 10 million servicemembers and their 
families. The solution consists of integrated commercial 
products designed to help efficiently manage the health of our 
servicemembers, veterans, retirees, and their families. MHS 
Genesis allows clinicians and patients to access needed health 
records and, importantly, ensures our servicemembers receive 
the same standard of care no matter where they are in the 
world.
    The Leidos Partnership for Defense Health went live at the 
initial operating capability sites in 2017. This included four 
military treatment facilities and more than 20 ancillary 
clinics. It allowed the team to pilot MHS Genesis to learn and 
to incorporate feedback into future implementations. This 
learning loop will continue as more facilities go live.
    We are counting on the process of implementing and learning 
in order to accelerate and provide the best solution possible 
in the best possible ways. These initial sites continue to use 
MHS Genesis today to safely deliver care to patients, 
completing more than 100,000 patient encounters every month. In 
our opinion, the intended purpose of the go-live at the initial 
sites was achieved, which was to provide an outstanding health 
information system and to identify areas of improvement and set 
the course for corrections, prior to broader deployment.
    Here's a quick overview of 3 things that we--insights that 
we gain from implementation. One, we refined our approach to 
training. The curriculum is now better aligned to clinical 
processes, also called workflows, and we are using improved 
team-based, roll-based, and just-in-time-based training 
methods. Two, the underlying IT backbone, the networks, the 
computers, the printers, the medical devices, must be mapped 
and tested to support the new system. The implementation at our 
initial pilot sites identified the critical importance of 
validating and revalidating that the necessary infrastructure 
is, in fact, ready. And, three, implementing complex systems is 
fundamentally a people business. Changing clinical processes is 
hard.
    The commercial technologies that comprise the MHS Genesis 
system are operational in health facilities around the world. 
The most challenging work ahead is not only the engineering, to 
ensure that the underlying components continue to work in a 
secure environment, but also work closely with the dedicated 
and amazing medical staff to best placement the MHS Genesis 
solution.
    In closing, Leidos and its partners are confident in our 
ability to placement the integrated tell me if I'm wrong health 
record system, MHS Genesis, across the defense health community 
by the end of 2023. Our team is honored and committed to 
fulfilling this noble mission.
    Thank you, and I look forward to your questions.

    [The prepared statement of John Scholl appears in the 
Appendix]

    Ms. Lee. Thank you, Mr. Scholl.
    Mr. Crowe, you are now recognized for 5 minutes.

                   STATEMENT OF RICHARD CROWE

    Mr. Crowe. Good afternoon, Madam Chair Lee, Ranking Member 
Banks, and other Members of the Subcommittee. My name is 
Richard Crowe. I am an executive vice president at Booz Allen 
Hamilton and client service officer for Booz Allen's health 
account.
    In that role, I lead a diverse portfolio of health service 
contracts, including IT and health care operations contracts. 
That portfolio includes our electronics health record 
modernization program management office support contract at the 
Department of Veterans Affairs.
    Booz Allen has a strong demonstrated commitment to serving 
our Nation's veteran population. Booz Allen was founded by a 
veteran, and the company has continuously supported the 
Department of Veterans Affairs since 1952. Booz Allen takes 
great pride in our sixty-five year history of supporting 
veterans, which we do in multiple ways.
    Approximately 30 percent of our over 25,000 employees are 
military-connected, meaning they are veterans in the National 
Guard or military spouses. And Booz Allen invests in helping 
our military-connected employees thrive through career-
building, best-in-class benefits, formal programs for military-
spouse support, and support to the military and veteran 
communities through innovative and impactful, nonprofit 
partnerships. We are committed to the Department of Veterans 
Affairs' mission to serve our Nation's veterans.
    I am pleased to be here with you today to discuss Booz 
Allen's support in the role of the VA's Electronic Health 
Record Modernization program. I would like to begin today by 
discussing an overview of the role of the PMO support contract 
in our work, who we support, and how we interact, 
contractually, with the other witnesses here today.
    The role of the PMO contract support: As the VA's PMO 
contractor, our role is to help position the VA for success in 
three main areas. First, we provide search staffing, resources, 
and tools, as well as management, engineering, government 
expertise, to augment the VA program office's own capabilities.
    Second, we help the Government obtain specific skills and 
talent relevant to the EHR implementation for the necessary 
duration at the relevant stage of the implementation process in 
time-bound manner.
    Third, assist the implementing organizations by helping the 
respective workstream leaders break enormous projects into 
discrete, actionable, trackable, and measurable tasks.
    The VA's use of a PMO support contract is consistent with 
other commercial and governmental EHR implementations.
    Who we support: Our role as the PMO contract support, Booz 
Allen works at the direction and supervision of the OEHRM PMO 
under a time-and-materials contract? Our job is to respond to a 
range of VA taskings required for successful EHRM 
implementation. We play a supporting role to the PMO and do not 
have our own independent development scope, nor responsibility 
over specific EHRM development, deployment, and implementation 
tasks.
    Structurally, our team mirrors the VA PMO, in that we are 
organized into workstream pillars which we support at the 
direction of the VA lead. The primary workstream's focus on 
assisting the chief medical officer, Technology Integration 
Office, and program control.
    How we interact with other contractors: We do not have 
independent scope or responsibility for the EHRM 
implementation, nor do we direct Cerner. Our interaction with 
Cerner is at the direction and in support of VA.
    Thank you for the opportunity to testify before the 
Subcommittee today. Booz Allen is proud of the support we are 
providing the VA and we have great confidence in the VA's 
leadership of the EHRM PMO.
    I look forward to your questions.

    [The prepared statement of Richard Crowe appears in the 
Appendix]

    Ms. Lee. Thank you. I will now recognize myself for 5 
minutes of questioning.
    This is for both Mr. Dalton and Mr. Scholl: From a joint-
governance perspective, how are Leidos and Cerner working 
together to ensure that seamless care and interoperability are 
at the forefront of both of your respective implementations?
    Mr. Dalton. Thanks for the question. I will apologize for 
my voice. My team is happy I can't talk, but it is not very 
helpful in this environment.
    You know, I think the important thing around decision-
making is that we are really working on focusing on decision-
making at the lowest levels. We work closely together, 
obviously. We are on their team and they are on our team. We 
have a great working relationship. We know each other. We know 
our skill sets well.
    We have joint working sessions where we work closely 
together. Leidos is closely involved in the workshop process 
with us and the VA. We also have an environment-management 
operating group that consists of VA, DoD, Cerner, and Leidos, 
which is working closely together on a regular basis.
    We have great relationships at the corporate and other 
levels. I think we work closely together in that capacity on 
the solution and we continue to do so.
    I don't know if Mr. Scholl, if you have anything to add to 
that?
    Mr. Scholl. Not much incremental, other than to emphasize 
that we are in operating rhythms, where we are in meetings 
together, we review findings together, we work closely together 
from the lowest levels of our team to the highest levels of our 
organization, including recurring meetings at the most senior 
levels, myself and even our CEOs.
    Ms. Lee. Mr. Dalton, Cerner's monthly project reports list 
delays in decision-making, summarizing carrying over from 
month-to-month. How much of that is a product of a lack of 
effective governance structure on behalf of the VA and DoD?
    Mr. Dalton. I think, look, I mean, it is hard. Clinical 
decision-making is not easy. We have 18 councils. We are 
running a process. We are getting into--I mentioned 
transformation at scale. It is a big project. There is much to 
do. We are getting into difficult decisions around referral 
management, processes, workflow. I think all of those elements 
play into kind of where we are at on status.
    We are also making sure that we are getting national 
representation and local representation as part of this process 
and tuning that into decision-making is not always an easy 
thing to do, but I think all of that has led into kind of where 
we are at today.
    We are behind in a few areas. We know what those areas are. 
We have eyes on the target. We have the ability and the 
reporting to know where they are. We are having daily meetings, 
daily cadence. We are meeting with the DoD and VA. We have 
escalation paths to resolve those.
    Ms. Lee. All right. Thank you.
    This is for Mr. Scholl and Mr. Dalton. For some decisions, 
such as which access card would be used, the resolutions seem 
to take quite a long time to get to. Cerner developed a working 
group in an attempt to provide the DoD and VA with some viable 
options.
    Is that working group something that should exist as part 
of the joint governance structure or was it a workaround due to 
the lack of an effective governance structure?
    Mr. Scholl. I think we had, from inception, always intended 
to have working groups at the Cerner-Leidos level, so I 
wouldn't characterize it as a workaround to anything that DoD 
and VA, you know, are striving for; rather, we view it as our 
mutual responsibility to bring solutions to our respective 
customers.
    Travis?
    Mr. Dalton. Yeah, I am going to let Mr. Waltman comment on 
that.
    Ms. Lee. Okay.
    Mr. Waltman. Yes, ma'am, thank you.
    I agree, I don't think that it represents a lack of or that 
progress was impeded, specifically, by a lack of joint 
governance. This was a very complex decision and a process that 
required a lot of input from within VA, with various 
departments within VA, and stakeholders, especially given the 
complexities of VA's contemplating moving to the U.S. access 
card from General Services Administration. So, there were a lot 
inside-VA decisions that needed to be worked through and I 
think that happened relatively effectively.
    Between the two Departments, there are also decisions that 
need to be made, such as enumerating users of the system with 
an EDIPI, which is the common identifier for the system, and 
the Departments are still working through those. I think there 
are certainly opportunities for a potential joint entity to 
help facilitate some of that decision-making. The EDIPI is a 
good example. Other memoranda of understanding and agreements 
between the Departments for how these systems will operate, 
particularly including privileges and things like that for 
access to the record would be facilitated by joint decision-
making.
    Ms. Lee. All right. Thank you very much. I yield the 
remainder of my time.
    And now, I would like to recognize Mr. Watkins for 5 
minutes.
    Mr. Watkins. Thank you, Madam Chair.
    Mr. Dalton, we hear the term ``interoperability'' a lot in 
these discussions about electronic medical health records. It 
is more than just sharing data between multiple systems.
    Can you expand on the concept what it means for EHRM and 
how it impacts the care of our veterans?
    Mr. Dalton. I am happy to. Thank you for the question.
    Interoperability to us is more than just--to the community; 
it is many things, as you mentioned. So, our goal and our focus 
is the right data at the right time and the right place so that 
the provider can make a truly informed and best decision. There 
are a number of things that go into that.
    So, we are bringing VA and DoD into a single instance in 
the domain. We have VistA history that is coming into the 
environment. We have got device integration, real time. We have 
reference lab and state PDMP data for opioid-risk scoring. And 
we have also got open-standards-based APIs. All of that is 
interoperability in our mind and allows the provider to have a 
true view of the longitudinal record and make an informed 
decision.
    Mr. Watkins. You mentioned opioid addiction. It and suicide 
are a problem among veterans. Not a day goes by when I don't 
think of a veteran, I served with who committed suicide and so, 
it is a personal issue.
    How can the VA and DoD, creating a single record based off 
of a Cerner platform, support us combatting those efforts?
    Mr. Dalton. With opioid, we have the opportunity to 
integrate into the state prescription drug monitoring programs, 
so we can actually pull that data and have a risk score. So, it 
allows us early identification and allows us to proactively 
look at those issues, inside of the workflow. That is very 
different than a reactive situation or at guessing. So, that is 
one area.
    I think we also have the opportunity to innovate with the 
VA, as it relates to data analytics, predictive modeling, early 
intervention related to suicide and PTSD. That is an area we 
want to focus on with them going forward.
    Mr. Watkins. Thank you, Mr. Dalton.
    Madam Chair, I yield my time.
    Ms. Lee. Thank you. I now recognize Mr. Lamb for 5 minutes.
    Mr. Lamb. Thank you, Madam Chair.
    I want to thank all of you for being with us here today. I 
know it is not easy to come all this way, and I also know we 
may or may not get a chance to be in front of you again for a 
while, just the way this process works out.
    So, for the 3 Cerner witnesses in particular, I would just 
like to ask now, you know, it is June of 2019. We are all 
expecting a go-live, I think it is October 2020, but at some 
point, in 2020 you will be really ramping around next year 
around this time. Is there anything that you don't have from 
the government-VA side or you fear you aren't going to have 
between now and then that could impact the planned launch, 
anything at all?
    Mr. Dalton. I think the primary element we talked about 
earlier is around making quick decisions, so we need to 
continue to focus in that area. You know, it is hard. It is 
complex. I appreciate the commentary around getting it right. 
We also want to get it right, but I think, just, we do need 
that joint decision-making authority. We are operating 
effectively--I believe that--and we are getting things done, 
but there comes a point where you have to have that joint 
capability.
    We have a few examples. I am happy to let the team describe 
what those, sir, if you would like?
    Mr. Lamb. Please. Yeah, please go ahead.
    Mr. Waltman. Yes, thank you. I appreciate the question.
    I agree with Mr. Dalton in that there are a number of 
things that if we can ensure that they are facilitated between 
now and that time, will make things much more effective and 
much more likely to be the success that we all expect them to 
be for veterans and servicemembers. So, for example, there are 
realities of working in a joint environment with the Department 
of Defense that we have to have a common cyber posture between 
the two environments, and there are decisions that the 
Department of Defense needs to make in authorizing, for 
example, assessment strategies for some of the technology, for 
example, container technology, or other decisions regarding 
connections between aspects of the system from VA to DoD.
    And although some of those decisions have been in process, 
we have not seen, between the Departments, all of those at the 
speed that we would like to be able to ensure we maintain the 
expected schedule. So, certainly, joint decision especially in 
that cyber area is one area that I think is very important to 
us.
    Mr. Lamb. Thank you. And just to be clear, have you made 
clear to the decision-makers, the impact that that could have 
on your schedule and the ability to launch this on time next 
year?
    Mr. Waltman. Yes, sir. We absolutely have done that, and we 
continually monitor the status of these decisions and decision 
requests and brief their status and request facilitation and 
updates.
    Mr. Lamb. Okay. Go ahead, Ms. Stoner.
    Ms. Stoner. Yes, thank you for the question.
    We have had a number of items, things that require either 
joint or VA decisions. We have been working closely with the VA 
between workshops, in addition to the surging during the 
workshops to close out those decisions, and while we 
acknowledge that both Departments have different missions, 
there are a number of things that have to be decided on 
jointly; for example, what do particular results appear to the 
clinician for.
    And so, there have been a number of items that we are 
tracking to close out, bringing the two groups together. And as 
Mr. Dalton said, we are seeing progress there, but it is how 
fast and how scalable is that process and how consistent is it 
to be able to do on a regular basis.
    Mr. Lamb. Okay. So, one example was, basically, data and 
cybersecurity and assessment of the technology that is being 
used. Were there any other concrete examples that you can give 
us today? Because if we are going to have the DoD and VA 
decision-makers in front of us regularly, it would be helpful 
to ask about these things.
    Ms. Stoner. So, I think the biggest thing that we are 
looking for is a process by which we always make those 
decisions.
    Mr. Lamb. Okay.
    Ms. Stoner. So, things like results-viewing; that has to be 
consistent across the agencies. How the Department of Defense 
takes on new capabilities that become available because the VA 
has provided them, and as well, how do we continue to push both 
agencies to move on a commercial baseline, take advantage of 
those investments.
    Mr. Lamb. Okay. Thank you.
    Madam Chair, I yield back.
    Ms. Lee. Thank you. I now recognize Ranking Member Banks 
for 5 minutes.
    Mr. Banks. Thank you, Madam Chair.
    A few months ago, Kaiser Health News and Fortune published 
a truly sobering piece of investigative reporting on the EHR 
industry. Any case anyone missed it, I ask unanimous consent to 
enter the article ``Death by a Thousand Clicks'' into the 
record.
    Ms. Lee. Without objection.
    Mr. Banks. What I find most alarming is the issue of gag 
clauses, which are terms that some EHR companies put in their 
contracts threatening buyers with litigation if they speak 
publicly about the problems with the systems.
    Mr. Dalton, has Cerner ever imposed a gag clause, meaning 
any term or condition in any software-license agreement or 
other contract that discourages any user from speaking publicly 
about any subject?
    Mr. Dalton. No, not that I am aware of.
    Mr. Banks. The negotiations between DoD and VA over 
leadership of the Joint Program Management Office, the firm, 
are probably one of the worst-kept secrets in Washington. This 
has been going on since last fall, and the goalpost seems to 
have been lowered to putting interim leadership in place and 
standing up the office in phases through March 2020.
    This question is for everyone who wishes to answer. The two 
Departments that have some technical integration in place, but 
what is going to happen to--hold on--the two Departments have 
some technical integration in place, but what is going to 
happen to the EHRM and MHS Genesis if they don't integrate the 
other aspects? What is the impact on you, the contractors, 
trying to implement these projects?
    And we can start on our right.
    Mr. Crowe. Well, I think we support the PMO on the VA side, 
and so, in that, we support the VA. Specific to your question, 
obviously, strong governance across both of these programs for 
common decisions is going to be critical. I think when you look 
at the proposed firm, this is a ten-year--as you said earlier, 
sir, it is the beginning--it is the middle innings of the 
beginning, and this is a 10-year process. So, it is not 
necessarily inappropriate to take some time and pause to think 
how you want to have this structure come together from a 
governance standpoint.
    So, I know the agencies are talking, and I am not really in 
a position to comment on how they are going to ultimately come 
together.
    Mr. Banks. Mr. Scholl?
    Mr. Scholl. Yeah, thank you.
    If I could play the question back to you and make sure that 
I am answering precisely, Ranking Member Banks, what I thought 
you asked is: How much do we move beyond the pure technical 
integrations into other issues and how important is that to us 
as the contractors?
    Mr. Banks. Yes.
    Mr. Scholl. Much has been said of decision-making and I 
think as the DoD and VA get together and solve the decision-
making processes to increase speed and efficacy, I think those 
are things that would be required. But we, from the DHMSM 
rollout, feel confident where we are in the decision-making 
inside the DoD program and look forward to working with Cerner 
and the Departments, as they implement new processes and 
procedures to make better decisions.
    Mr. Banks. Mr. Dalton?
    Mr. Dalton. We aren't directly involved in the conversation 
with the firm. We provided some data points and some inputs and 
some thought, and so I just can't comment on specifically where 
the agencies are at in relation to that.
    But it goes without saying when you are in a single 
instance, a single environment, there comes a point in time if 
you can't agree and you can't make some decisions, it is hard 
to proceed forward. They need to maintain standards. There 
needs to be clinical decision-making. There needs to be timing. 
There needs to be joint milestone management. Upgrades will be 
done at the same time.
    So, not only is it difficult to proceed, but you miss out 
on a great opportunity to actually work together and get the 
efficiencies and synergies that the two agencies could get with 
one another by doing so.
    Mr. Banks. So, to Leidos and Booz Allen, how can you 
implement Cerner as a single common instance if they don't have 
some sort of unified management structure, in your opinion?
    Mr. Scholl. Well, you know, the contracts were sequenced in 
time. So, the DHMSM contract started before even the award of 
the Cerner contract. So, I think there is going to be a process 
of the implementation of MHS Genesis and, you know, as the VA 
requirements emerge, then we need to have this joint decision-
making and process to resolve any conflicts, so we end up with 
a single instance and a single system.
    Ms. Lee. Thank you. I now recognize Ms. Brownley for 5 
minutes.
    Ms. Brownley. Thank you, Madam Chair.
    So, I wanted to go back and follow up on Mr. Lamb's 
questioning. If I understood you correctly, that you said that 
one of the issues in terms of meeting timelines and completion 
dates is, in essence, creating a system of joint decision-
making. And my understanding of joint decision-making is DoD 
and the VA and all of you, right?
    So, let's just say, hypothetically, that that system isn't 
created. I mean, do you have a timeline to get that? Does the 
VA understand the urgency?
    And, you know, if that isn't established, then it sounds to 
me like you are going to continue to fall behind schedule due 
dates--correct me if I'm wrong. Am I wrong? Yes? No?
    Mr. Dalton. Yeah, I think, as I had commented earlier, we 
are making some decisions and we are proceeding forward, but, 
yeah--
    Ms. Brownley. No, I understand that. But what I don't 
understand is that there are some key decisions that, you know, 
have to be made before you can make another big significant 
step in the process.
    Mr. Dalton. Yes, there are. Correct. Yes, ma'am.
    Ms. Brownley. So, if nothing is done, then sort of some 
key, essential decisions aren't going to be made.
    Mr. Dalton. That is correct.
    Ms. Brownley. Hopefully that won't be the case, but if it 
is the case, is there a place in this process where we, as 
Congress, would understand that those decisions aren't being 
made and that we should anticipate further delays or is that 
simply something that you will make the VA aware of that we are 
not going meet these deadlines because X, Y, and Z, and that is 
as far as the information flow goes?
    Mr. Dalton. We have a process for risk management, 
obviously, that we work with both, Booz Allen Hamilton and the 
VA. We are constantly evaluating risks. We are constantly 
evaluating our integrated master schedule and timeline. I 
believe we provide reporting on a regular basis to Congress, 
and, otherwise, related to that.
    Our goal is for that to be readily transparent to all 
involved so that there is clear decision-making, clear 
understanding, and that we are able to proceed forward.
    Ms. Brownley. Thank you. And for Cerner, too, you indicated 
that, you know, there are a few things that are behind 
schedule, and I think one of those is that you had indicated 
that Cerner is saying that they are going to test every 
function throughout the build phase of the EHR and, actually, 
the VA is holding its last workshop or workflows are being 
developed and fine-tuned, and that is in September/October of 
2019.
    So, that leaves the VA and Cerner less than 6 months to 
complete the design and development, perform these tests on the 
completed system, correct any issues, and then design and 
deliver training to the end-user. So, this time frame, to me, 
seems ambitious, at best, and little room for error.
    Mr. Dalton. I think one major advantage that we have is 
that we are largely using some of the work that we have built 
together off of the DoD. So, much of the workflow and the 
system will be the same, and so, we are able to re-leverage 
some of the work that we have done collectively together on 
behalf of the VA.
    It is consistent with our commercial timelines. We are 
testing in training, and so we feel confident, but we are able 
to leverage that baseline.
    Ms. Brownley. And, you know, there are rumors that the VA 
is looking for another contractor to perform the testing. Do 
you know about that at all?
    Mr. Dalton. I do not know about that.
    Ms. Brownley. Okay. The last thing I wanted to ask is 
around data ownership. And the VA and the DoD's data have or 
will be moved into the Cerner's data center in Kansas City. 
What impact will the data being in a commercial data warehouse, 
have on portability, access, and privacy, and then who 
ultimately owns the data once it is moved to the Cerner's data 
center?
    Mr. Dalton. I am going to pass that to Mr. Waltman.
    Mr. Waltman. Yes, ma'am, thank you.
    So, I think the answers to your questions are VA and 
veterans and the people whose data it is always own the data. 
The data is not owned by Cerner.
    And in terms of access and privacy, first of all, from a 
privacy standpoint, this is probably the most secure health-
information environment in the world at this point with the 
requirements that have been needed to be met for DoD, and I 
think I am out of time.
    Ms. Lee. You can have a few more seconds.
    Mr. Waltman. Okay. Great.
    And in terms of access, I think that the access for folks 
to use that data, veterans themselves, servicemembers 
themselves, and other companies what are interested in 
providing capabilities to help them will be greatly increased. 
We have APIs that provide access to that information, as 
appropriately managed through our code, program, and so forth, 
and there will be a tremendous ability for vendors and people 
interested in helping veterans to provide capabilities that 
leverage that data being in one place.
    Ms. Brownley. Thank you.
    Thank you, Madam Chair. I yield back.
    Ms. Lee. Thank you. I will now recognize myself for 5 
minutes for questions.
    And I would like to focus a little bit on the different 
contractor responsibilities, and I will start with Mr. Crowe. 
In your testimony, you note that Booz Allen's role is to 
support the program office of EHRM. The executive director for 
EHRM has stated something to the effect that when you think 
that EHRM, think Cerner and Booz Allen.
    How is Booz Allen augmenting the staffing in the EHRM 
office?
    Mr. Crowe. Thank you for the question. That is a good 
question.
    We provide, as I testified, surge support, a variety of 
management, technical, engineering, clinical support. We bring 
folks with significant background in EHR implementation, a lot 
of experience in the Federal space and significant experience 
in supporting the VA directly.
    Tests that are typical for a PMO contractor: We typically 
aggregate data, collect data, support field trips, support a 
variety of engineering reports, studies. We pool this together 
and we present documentations and maintain documents and 
artifacts for the PMO that enable the Government to make 
decisions and move forward in their role as the oversight and 
program management of the effort.
    Ms. Lee. Thank you. The VA stressed the importance of these 
Command Action Teams in the implementation. What is the role of 
the CAT and when will they come into play?
    Mr. Crowe. So, currently, Booz Allen has 30 people, 
approximately 30 people--a bit over--in the Pacific Northwest. 
And the Command Action Team, simply put, is an extension of the 
PMO. They make the PMO extensible to the local PAC Northwest 
facilities helping provide connectivity directly back to 
facilitate, you know, visits out there, information collection, 
deployment, and as we move forward into IOC, they will be 
enabling the IOC.
    Ms. Lee. Okay. Thank you.
    Mr. Dalton, as the prime contractor, Cerner is responsible 
for overseeing I think at least 24 subcontractors. So, I would 
like to just get a basic understanding of which vendor or 
vendors are responsible for certain aspects of the 
implementation. So, specifically, who has the ultimate 
responsibility for training?
    Mr. Dalton. Thank you. I guess I would start by saying, I 
think we are ultimately responsible for everything that 
happens. You know, we purpose built the team based on 
experience with the VA, gaps or needs. It is an ongoing 
process, and so I think we will continue to evaluate. You may 
be aware of it, last week we held an industry day with over 400 
companies in attendance. So, we will continue to evaluate the 
best capabilities.
    As it relates to training, Cerner is going to be doing the 
vast majority of the training for the VA.
    Ms. Lee. Okay. What about testing?
    Mr. Dalton. Again, it is a joint team. It is our team and 
then we have a small business contractor that we are working 
closely with.
    Ms. Lee. Who is that?
    Mr. Dalton. MicroHealth.
    Ms. Lee. And then what about hardware deployment and 
configuration?
    Mr. Dalton. The majority of that, if not most of it, will 
be done by Cerner, but we work closely with Leidos in technical 
areas. Accenture is also on the team, helping us with 
technology and interfaces, as well.
    Ms. Lee. So, you say it is pretty much a 30-30 jointly 
responsible for Cerner?
    Mr. Dalton. In general, I would say we have the majority of 
the responsibility right now.
    Ms. Lee. Okay. At the elbow, support during go-live?
    Mr. Dalton. It will be a combination of Cerner and a number 
of other small business partners, most likely.
    Ms. Lee. Can we get the names of who those are?
    Mr. Dalton. Yeah. And can I provide them post? I don't have 
them.
    Ms. Lee. All right. Thanks. I understand.
    And, then, finally, help desk support?
    Mr. Dalton. That would be done by Cerner Corporation. We 
will, also, again, work closely with our partners from Leidos 
on help desk and sustainment.
    Ms. Lee. Great. Finally, just, you know, Leidos, you were 
the main contractor for DoD, now you are a subcontractor. I am 
trying to get an essence for how the relationships work.
    And so, given these different contractual relationships 
that exist between each of you as the prime vendor and the 
constraints that those different relationships impose, how are 
you communicating with each other and really identifying 
lessons learned from the challenges? How does the day-to-day 
communication work?
    Mr. Scholl. Yeah, thank you. Well, first of all, I would 
lead by saying that in many ways, we have a boundary list 
conversation that goes on. So, in a day-to-day interaction, we 
are not actually reflecting on our respective work shares in a 
contract or things that, you know, that are written down on 
paper, but, rather, we are mission-oriented and trying to solve 
problems. So, that would be just the ethos of team.
    Secondly, we are in operating rhythms, daily, weekly, 
monthly operating rhythms where we are sitting next to one 
another with very defined lessons learned and action plans 
going forward, and that is a team effort. And not only us, but 
also with our customer, the DoD, in the DHMSM program, and I 
would assume, also, Travis does the same thing with the VA, and 
then we are in joint DoD and VA meetings, occasionally, as 
well.
    So, you know, to summarize that, operating rhythms are 
strong and vibrant, and the ethos of the team is very mission-
oriented.
    Ms. Lee. Great. Thank you. I am now finished with my 
questioning.
    I would now like to recognize Ranking Member Banks for 5 
minutes.
    Mr. Banks. Thank you, Madam Chair.
    Look, this is a huge investment. A lot of money is getting 
invested in this contract. And while there is a lot of 
confusing terminology that gets thrown around in hearings like 
this, I always think it is important to that we get to the 
bottom line. What are our veterans going to get out of this at 
the end of the day?
    So, my first question is for you, Mr. Dalton. Can you 
guarantee me that if completed, EHRM and MHS Genesis will 
produce a single, longitudinal medical record?
    Mr. Dalton. I don't like to make many guarantees in life, 
but that is ultimately, certainly our goal, sir, yes.
    Mr. Banks. Okay. Mr. Dalton, does that mean that each 
person, as he or she moves from enlistment to active-duty to 
reserve to veteran status, will exist in the system as a single 
record and that will be the same record for both, the DoD and 
VA?
    Mr. Dalton. Yes. Longitudinally, yes.
    Mr. Banks. Okay. Mr. Waltman, I want to throw this over to 
you. A true single health record means the patient has a single 
patient locator number in the system. Is each person going to 
have a single patient locator record number in DoD and VA?
    Mr. Waltman. Yes, sir, they will.
    Mr. Banks. Okay. Mr. Waltman, after some debate last year, 
VA and DoD decided to pursue a single common system, a single 
common Cerner instance. The overwhelming majority opinion was 
that that was the right thing to do.
    So, I have a couple more questions to you. First, this has 
been characterized as interoperability, but isn't it more 
appropriate to describe what VA and DoD are doing as pursuing 
or making interoperability unnecessary, in terms of assessing 
each other's records?
    Mr. Waltman. Thank you for that question. So, I think there 
is multiple parts to that. So, having a single record shared 
between two departments will certainly facilitate certain 
aspects of operations between them and for veterans; however, 
there are many, many other sites of care where both, 
servicemembers and veterans, will receive care and all that 
must be integrated into becoming part of the veteran or 
servicemember's health record. So, interoperability between the 
departments and between the departments and other entities of 
care remains critical.
    Mr. Banks. So, stick with that for a moment. What is the 
practical difference between interoperability and the single 
common instance?
    Mr. Waltman. So, I think the practical differences arise in 
how the information is integrated to become meaningful to 
whoever is looking at it at the point of care. The information 
between the DoD and the VA will be simpler to integrate because 
it will be starting from the same basis and the same framework. 
It will be in the same database in many instances.
    However, for legacy information, information outside of 
those two systems of care, that has to also be commonly 
integrated and that is part of interoperability.
    Mr. Banks. Okay. Mr. Waltman, another question: No one has 
fully explained what would happen if the Departments decided to 
go the other route, to each install the Cerner EHR, but to do 
so separately. What would have been lost under that scenario 
and does it indicate some limitations of Cerner's ability to 
interoperate with itself if the EHRs are not identical?
    Mr. Waltman. So, the evolution of the EHR, in general, is 
such that all EHRs have some differences and instantiations or 
deployments of EHRs, even the same her have some differences. 
By implementing both departments in the same common system, we 
eliminate the risk of many, many, many baseline decisions being 
different.
    As Mr. Dalton indicated, we have the DoD system to work 
from as the baseline, and so that creates instant commonality 
between the departments that far exceeds what would be done if 
all of the decisioning were made independently and separately 
for two different instances of the system.
    Mr. Banks. So, if VA and DoD had separate Cerner instances, 
how would that differ from what exists now with the joint 
legacy viewer?
    Mr. Waltman. That would be different in that the joint 
legacy viewer is, of course, read-only, and each Department can 
see the records of their Department and the--Department and 
community providers in a read-only context. Two implementations 
of Cerner would be actually somewhat similar to that, in which 
providers in each Department would be able to see into or see 
information from the other systems, but not be able to interact 
and write with it.
    In this case, both Departments will have providers who are 
able to interact and write to and read from the same record. 
So, that is a big difference between how it would be with two 
instances.
    Mr. Banks. Thank you. My time is expired.
    Ms. Lee. Thank you. I now recognize Ms. Brownley for 5 
minutes.
    Ms. Brownley. Thank you, Madam Chair.
    So, just to follow up on interoperability or maybe not 
interoperability, but what does it really mean with the 
Community Care providers, not just between VA and DoD, but 
Community Care providers?
    Mr. Waltman. Yes, ma'am. Thank you.
    So, the interoperability between Community Care providers 
and either Department will be provided via networks of health 
information exchange. So, of course, once we have implemented 
our health information exchange, the Cerner health information 
exchange for both Departments, which is underway, as we speak, 
then the Departments will have access to literally hundreds and 
hundreds of care provider organizations, as well tens of 
thousands--10,000, at least--providers of care. And that will 
be through the set of networks and health information exchanges 
which Common Well provides access to, care quality from The 
Sequoia Project provides access to, and the eHealth Exchange, 
which VA is already a member of, and has access to many care 
providers.
    So, the network will greatly expand and the ability to 
exchange that information effectively, at scale, will be 
provided by our health information exchange.
    Ms. Brownley. So, that capability, then, is already in the 
marketplace; is that what you are saying, in terms of different 
systems talking to each other?
    Mr. Waltman. Absolutely. It has just not been implemented 
in the integrated extent that we will be able to have the 
leverage to do from VA and DoD.
    Ms. Brownley. Uh-huh. One of the other issues that was 
raised in terms of timeline and meeting timelines is that the 
VA doesn't have the right equipment, doesn't have the right 
computers, in some cases, the Wi-Fi network, the band is not 
large enough to handle the data, and this is at large 
quantities at large scale. Is that something that VA is 
committed to getting done and if they don't, does that slow 
things down?
    Mr. Waltman. Well, we certainly have the understanding that 
VA is entirely committed to doing what is necessary in those 
terms. We have not seen all of the specific plans in that 
regard.
    I know that, for example, in our site assessments, we have 
provided recommendations for what they should have and what 
would be necessary to operate the system, including the 
provider equipment, including forward-deployed hardware that we 
would need to provide, as well as bandwidth and circuits. And 
our belief and understanding is that they are diligently 
working on all of those things.
    Ms. Brownley. So, you have made it clear to the VA what you 
need in order to, you know, proceed on this. And I understand 
that you are having constant communication with them, but they 
haven't given you an affirmative that they are, you know, in 
procurement, they are in the process of receiving this 
equipment and it will be in place by X period of time?
    Mr. Waltman. There are certainly things that we are aware 
of them doing. For example, I know that they have been working 
on circuits for system bandwidth and things like that, and I 
know that they are working on, you know, other aspects of the 
infrastructure required, but the details of that, we would have 
to defer to VA.
    Ms. Brownley. Do you think the VA, at this particular point 
in time, has the correct amount of staff focused on this to be 
able to complete their tasks?
    Mr. Dalton. I think, obviously, as resource-intensive, I 
think they are working closely with Booz Allen in search of 
support and otherwise. We haven't--I haven't seen an instance 
where their lack of staff has hindered our progress at this 
time.
    Ms. Brownley. Thank you. I yield back, Madam Chair.
    Ms. Lee. Thank you. I now recognize Mr. Roy for 5 minutes.
    Mr. Roy. I thank the chair and the Ranking Member. I thank 
y'all's indulgence. I have a competing hearing which I am the 
Ranking Member, so I had to sprint from Rayburn to here. So, I 
apologize for missing your opening statements. I would have 
liked to have heard those, and I hope nothing I am going to ask 
is going to be duplicative.
    You know, I was kind of gearing up for the hearing and 
looking at what y'all were going to be talking about. I have 
just a few questions, and I will start with you, Mr. Dalton, if 
you don't mind. You know, obviously, the MISSION Act allows the 
VA to disclose veterans' medical records to their Community 
Care providers unless the veterans opt-out, right? I think I 
understand that correctly. And this replaces the previous law 
that required the veteran to opt-in because anything could be 
shared, because Community Care was not designated as a bona 
fide reason to be sharing records.
    How is Cerner planning for this new authority to be used in 
the EHR?
    Mr. Dalton. I think from our perspective, our goal is to 
open and interoperable at all times. One of the reasons to do 
this is the modern capability and technology, data liquidity, 
the ability to flow data in and out. Regardless of where anyone 
is seen, our goal would be that the data is all available in 
the right location for the provider to make the right decision. 
You know, that has been our goal since the beginning and that 
is how I would expect us to interact in that capacity.
    Mr. Roy. And I can certainly say from the conversations--
and I represent Texas 21, which has a significantly veteran 
population, you know, outside of San Antonio--and this would be 
maybe, I think, the issue that I hear most about when I am 
hearing and listening to veterans about what is impacting them 
and their ability to actually use Choice/MISSION, being able to 
get out and this is a significant barrier to that.
    And I guess you guys are doing the market assessments and 
so forth, you know, what do you see that you might need to 
change or adjust in this framework?
    Mr. Dalton. It would be important that the community 
providers are participating in this effort. Our belief is that 
this will actually derive interoperability across the country. 
That those in the community will want to make sure that they 
are interoperating through the--with the VA. So, we believe 
that this could be a significant driver for interoperability.
    Mr. Roy. Get yourself some water.
    Mr. Dalton. Tough day.
    Mr. Roy. Another request is a little more technical in 
nature, and this is back to you, Mr. Dalton, but a quick 
question about the software costs. The most recent report VA 
has provided us indicates a total of $494 and a half million 
has been obligated on Cerner's contracts. How much of that 
represents software licenses and how much of that represents 
work or other work beyond the licenses, do you know?
    Mr. Dalton. I am going to have to provide that post for the 
record.
    Mr. Roy. That is fine.
    Mr. Dalton. I apologize.
    Mr. Roy. Has VA purchased and paid for all of the Cerner 
software that will be used in this project?
    Mr. Dalton. No, they haven't. They are paying as they go.
    Mr. Roy. Okay.
    Mr. Dalton. So, as it is being put into use, it is being 
paid for.
    Mr. Roy. Okay. And what software has VA not yet purchased 
or paid for, do you know?
    Mr. Dalton. They pay for it by a facility, which is by 
solution.
    Mr. Roy. Okay. And how much has the VA obligated and paid 
out for software so far, do you know, or is that another you 
will get back to me on?
    Mr. Dalton. No, I will have to get back to you, sir, with 
the numbers.
    Mr. Roy. Okay. Here's a question, and if I may, a question 
for Leidos, broadly. You spoke about achieving health outcomes 
to enable military readiness, which is very important, 
obviously, to protecting our country. How can that focus on 
military readiness transfer to the VA? What is the DoD doing 
right that the VA can learn from?
    Mr. Scholl. Well, I think there are many things being done 
right. You know, the ultimate objective of the system is to 
move the medical records to a modern, commercial off-the-shelf, 
continually upgraded system. And I think when we do that, we 
achieve outcomes like you are starting to see in the Pacific 
Northwest as it relates to a number of clinical appointments, 
the increase in, you know, detecting, you know, prescription 
errors or other safety events, as well as prescription fill 
rates, things like that. And those will translate into improved 
health and prove readiness and lessons learned for the VA.
    Mr. Roy. Okay. So, one last question--my time is winding 
up--this will be for you, Mr. Crowe. Some questions about the 
role that y'all are playing. First, can you elaborate on what 
you believe the value add is for having a program management 
office? Can you just walk through that and I will leave it at 
that?
    Mr. Crowe. Sure. Thank you.
    First of all, it is a best practice in commercial and 
government on any kind of major rollout of any--particularly in 
electronic health record. So, it is consistent with best 
practices.
    What we have been providing for the VA is surge support in 
a variety of different areas, ranging from electronic health 
record, technical engineering, but it is pretty evenly spread 
across the three pillars that we support, from program control, 
chief medical officer, as well as the technical integration 
office, and it is a range of functions from analysis, data 
collection, aggregation, preparing and maintaining artifacts, 
and supporting the VA in their role of oversight.
    Mr. Roy. Thank you.
    Ms. Lee. Thank you. I now have a few questions about 
expectations.
    So many times when the VA is implemented changes to its 
information technology and different changes, I feel like a lot 
of the potential failure is because of unrealistic expectations 
about what will happen when these changes are made. And I want 
to just set some clarity around the expectations of what the 
Cerner Millennium will achieve.
    There is been talks about veterans having to lug around 30 
years' worth of paper records and that will no longer be the 
case when the Cerner product is implemented. Isn't it true that 
some records, however, will not be migrated or not be available 
in Millennium?
    Mr. Dalton. I am going to pass that to Ms. Stoner.
    Ms. Stoner. Thank you, ma'am.
    There will be some records, particularly on the DoD side, 
just due to a different data-migration strategy, that will not 
be moved over to Cerner Millennium thanks to the acquisition 
approach from the DoD and, therefore, the DNF allowed us to 
take a different data-migration strategy with the VA because of 
our HealtheIntent platform was part of the plan from the 
beginning.
    So, all VA records will be within the Cerner Millennium. As 
DoD rolls out, all of those will also fall in line. Within 
Cerner Millennium, within the physician's workflow, there is 
the ability to access the joint legacy viewer and that will 
remain there forever. Part of that, as part of our training in 
change-management activities, is to make sure that clinicians 
understand where they can see all of that information, whether 
it is from legacy systems, a different location that has not 
yet transitioned over to Cerner Millennium or from the 
community providers.
    Ms. Lee. So, let me clarify. The VA has selected 30 data 
domains and the DoD has chosen 5; is that correct? So, there is 
like 25 data domains that are different--are not--that you are 
just going to be able to view in the legacy viewer?
    Ms. Stoner. Correct, on the DoD side. So, problems, 
allergies, medications, procedure history, and immunization 
history will be available for all patients that have been 
seen--
    Ms. Lee. And then what is the length of time represented in 
that?
    Ms. Stoner. On the DoD side, it is all information, because 
an allergy is an allergy forever, similar with your 
immunization history and things like that.
    On the VA side, it would encompass that 30 years of 
history, as we complete that data migration.
    Ms. Lee. Okay. How does this compare with best practices in 
the commercial sector?
    Ms. Stoner. So, the DoD was similar to what we do 
commercially. I think this represents some of the innovation 
that we are able to do with the VA, kind of exploring this new 
data-migration strategy that would allow for more robust data 
from the beginning. I think it is an opportunity that as we 
prove that out and integrate all of that information over, it 
may change the way we go commercially.
    Ms. Lee. Let me see. Explain how this difference will 
affect the interoperability eventually.
    Ms. Stoner. So, in terms of interoperability between the 
Departments, all of that information will be available to all 
users within the system. So, if a DoD patient has been active-
duty, changes to veteran status, is now being seen within the 
VA, all of their active-duty information, with the exception of 
some sensitive data, things like that, all of that information 
will be able to be seen by future providers, because it will 
all be inherent in the system.
    Obviously, as time goes, historical data becomes less and 
less relevant in the clinical record, so all of that 
information from day forward will be data in the record.
    Ms. Lee. Okay. Thank you.
    Finally, one question I have about infrastructure. And sort 
of at what point we know that there are incredible 
infrastructure needs that the VA decision-making structure 
around infrastructure makes it, I am just going to say, 
difficult for Cerner to basically proceed. And there is 
certainly kinks in the system in terms of when this 
infrastructure will be purchased, when it will be implemented, 
even to the extent of planning on what exactly is needed.
    At what point do we get alerted that the rollout of 
infrastructure on behalf of the VA is going to affect your 
rollout date? Like, at what point, what is the time lapse that 
you come to us and say, Hey, this is a problem. We are not 
going to make our deadline.
    Mr. Waltman. Yes, ma'am. So, I think that the critical 
aspect there is that at the time that we have to have 
capability ready to be tested in the environments and to ensure 
that those capabilities are ready to meet the training 
requirements and so forth to go-live at the sites, that is the 
drop-dead date for the capability to be there. I think that we 
would have a pretty good idea of whether that looks realistic 
or not, you know, several months before that. So, I think that 
that time frame is not too far from now.
    Ms. Lee. Okay. So, we will know in a couple of months if we 
are ready for you to or if the VA is ready for implementation?
    Mr. Waltman. Or on track.
    Ms. Lee. On track, okay. I am sorry, I am beyond my time, 
and I will recognize Ranking Member Banks for 5 minutes.
    Mr. Banks. Thank you, Madam Chair. You get to have all the 
time that you want.
    Mr. Waltman let's pick up where we left off a moment ago. 
Congress gave the Departments an interoperability mandated in 
2014. They certified that they met it in 2016 based on the 
joint legacy viewer. I believe that you still worked for VA at 
that time.
    Either JLV achieve interoperability and solve the problem 
and the Cerner implementation is unnecessary or JLV did not 
really solve the problem. Both things can't be true. Which one 
is it?
    Mr. Waltman. I think that, sir, as we have talked about, 
there is a continuous evolution of capability in health 
information technology. At the time that the requirements were 
given to the Departments for what needed to happen in regard to 
interoperability, the expectation was to be able to see the 
entire record from each Department in one place. That 
capability was provided in JLV, as I and Chris Miller, 
testified at that time.
    Since then, the Departments have decided, and it has been 
required that they have a system in which they can provide care 
together in the same system. That is beyond the capabilities of 
JLV. So, for the requirements that existed at the time, I think 
that has evolved and the expectations and desires for how to 
provide seamless care, which is the requirement now, requires a 
health record system that both Departments can use together and 
write into and operate from the same system.
    Mr. Banks. All right. So, this will be my last question on 
the single versus separate instances debate, and this question 
is for Cerner, as well. You have established that the single 
instance is going to be more effective in the long run and I 
believe you, but what is downside? Why was there such a heated, 
months-long discussion last year when Genevieve Morris was 
running EHRM, about what VA was giving up in the single 
instance?
    Mr. Waltman. I think, sir, that is a great question. And 
there were lots of important discussions that had to take place 
for both Departments to understand what the extent of 
configurability would be to meet their differing needs to an 
extent. Not every process or every workflow is identical 
between the Departments; however, I think what folks realized 
is that much of the differences between the Departments are 
external, even to the EHR.
    And so, in terms of both Departments understanding that we 
are starting with a commercial baseline and there is a 
configuration band, as Mr. Windom likes to refer to it, in 
which the system can support variability between workflows and 
requirements of the Departments and do so successfully in one 
system. That took a while for people to explore and understand.
    Mr. Banks. All right. Well, I find it hard to believe that 
VA isn't losing any autonomy in the single common system; in 
other words, that VA can have their cake and eat it, too.
    What do you say to that?
    Mr. Waltman. I think that autonomy and operation 
capability, I think I would describe it as this. There are 
certain decisions that were made in the DoD baseline. From the 
last workshop, for example, I was in a meeting where they were 
discussing what went into a drop-down for selections in 
prosthetics workflow. There were already decisions made there, 
and the discussion was around, do those words work for VA, as 
well? Those are kinds of things where VA would have just 
decided what they needed, otherwise; however, what they are--
so, they may be giving up having to adapt to a few of those 
kinds of decisions or figure out how to integrate and work with 
it, but the benefits far outweigh the challenges in doing that, 
I think, in our view, given that the seamless care providers 
will be able to provide for veterans and servicemembers on both 
sides, far exceeds the limitations imposed by some of those 
word choices and other things in the system.
    Mr. Banks. All right. Mr. Dalton, Cerner's HealtheIntent 
software is a popular health system. Can you explain how 
HealtheIntent is different from the core EHR Millennium?
    Mr. Dalton. HealtheIntent is a product we use to aggregate 
data from multiple data sources and Millennium is the core EHR. 
So, HealtheIntent is a platform that coexists with Millennium 
and we use it to ingest, integrate, normalize, and data into 
the MR.
    Mr. Banks. Okay. That is all I have got. Thank you very 
much. I yield back.
    Ms. Lee. Thank you. I now recognize Ms. Brownley for--you 
are done. Okay.
    I just have a couple more questions I wanted to ask. The VA 
has said some functionalities are not available in Cerner's 
commercial modules, including nutrition, long-term care, base 
of cardiology, and prosthetics. For each of those modules, what 
is Cerner's approach to assessing how it can improve or acquire 
those functionalities to meet VA's needs?
    Mr. Dalton. Working closely with the agency, obviously. 
They have unique needs, based on their patient population. I am 
going to kick it over to Julie to go a little further.
    Ms. Stoner. So, a lot of this process gets identified 
during what we call our current state assessments or current 
state reviews, where we have teams on-site and can understand 
some of the niche workflows, things that are different than 
what we see commercially. For example, the nutrition care or 
example that you provided, that was identified pretty early on 
and then we have been working with the agency to determine what 
is the best path forward; whether it is integrating with a new 
solution that we work with, if it is integrating with something 
that they use at one of their existing facilities, so we can 
still provide that service to them, just in this case, through 
integration, rather than native to the EHR.
    Ms. Lee. How are you using this workshop process to balance 
like what VA's expectations are versus potentially a push to 
meet what is available in the commercial market?
    Ms. Stoner. So, thorough our iterative approach, we have 
had the 8 national--well, we will have 8 national workshops, as 
well as the local workshops. A large part of those workshops is 
change management and training of, what is the capability, how 
does that work into their workflow.
    One of the biggest things in this space is standardizing an 
organization that has been independent for so long with the 130 
different instances of VistA. Each area has been allowed to do 
things a little bit differently. So, I would say the biggest 
challenge has been what does standard in the VA look like and 
how can we integrate that into the EHR.
    And then through the iterative process, we are allowed to 
make a decision. We can configure it, and then in the next 
workshop, provide that back to them to review and react to. 
Sometimes that may mean we have to reverse the previous 
decision, because it sounded like a good idea, but now they 
have seen it in reality, that doesn't quite jibe with what we 
want to do. And that is why we have so many workshops, is to 
allow that ready feedback so that we don't get to the end and 
go live and find out that it doesn't really--
    Ms. Lee. Didn't work. Okay. Thank you.
    Well, I think this is the end of the questioning, and I 
would like to thank all of you for this very helpful 
discussion. We all look forward, when we have our next hearing 
on EHRM on June 12th, and I would like to thank all of you for 
your attendance and hope we can work together, and, obviously, 
have the transparency and the notification that is needed to 
make sure that we remain on track and, obviously, produce a 
successful product that delivers health care to our veterans 
and our servicemembers in a seamless manner. So, thank you very 
much.
    All Members will have 5 legislative days to revise and 
extend their remarks and include extraneous materials, and the 
hearing is now adjourned. Thank you.

    [Whereupon, at 4:00 p.m., the Subcommittees were 
adjourned.]




                            A P P E N D I X

                              ----------                              

                  Prepared Statement of Travis Dalton
    Thank you, Chairwoman Lee, Ranking Member Banks and distinguished 
members of the Committee. My name is Travis Dalton, President of Cerner 
Government Services. Appearing with me are David Waltman and Julie 
Stoner from Cerner.
    We thank you for the opportunity to appear before you today, and 
for your continued engagement and support of the Department of Veterans 
Affairs' (VA) Electronic Health Record Modernization (EHRM) program.
    Just over a year ago, VA partnered with Cerner to proactively 
transform care for Veterans to help them lead longer and healthier 
lives. We remain honored and humbled to be part of this mission, and we 
have assembled a world-class partnership to deliver it.
    Electronic Health Record Modernization is not just about 
technology, but transformation at scale. We realize the size and 
complexity of VA. This won't be easy, but it is achievable and we are 
making progress.
    This program will ensure a lifetime of seamless care for Veterans 
and Service members across the Department of Defense (DoD), VA, and 
community providers.
    The Department of Veterans Affairs has a long history of innovation 
and excellent care for those who have served all of us. We are building 
on that foundation and moving forward together.
    This project will give providers the right tools and data at the 
right time to make the right decisions. With EHRM, Service members and 
Veterans will no longer have to carry stacks of paper records. 
Providers will have access to the Veteran's record wherever they 
deliver care.
    Using advanced analytics and decision support we will be able to: 
better identify, diagnose, treat and manage chronic conditions; combat 
suicide, and opioid and substance abuse through interoperability and 
workflow tools that support clinicians; operationally move from 130 
disparate systems to one open, modern, integrated system that's easier 
and more efficient to update and maintain.
    It won't happen overnight, but we can and will achieve these goals.
    This undertaking is immense. It carries risks and we don't take the 
challenges lightly. We must deploy to over 1,700 sites, train over 
300,000 VA employees, collaborate with DoD to make decisions, 
interoperate with the community, aggregate decades worth of clinical 
data, and update technology.
    The only way to get there is for all of us to work together: VA, 
DoD, all of you, our partners here today, VSO's and other stakeholders.
    We are on the right track. We have confidence in Mr. John Windom 
and his leadership of this effort at VA. That has been imperative to 
our progress. Examples of that progress include:
    We have established 18 councils made up of VA care providers 
nationwide, Cerner experts, partners, industry leaders, and DoD.
    The councils have completed 5 of 8 National Workshops in Kansas 
City. They are making decisions, setting standards, and bringing best 
practices and lessons learned to implement one health record system 
across all VA.
    We created an advanced learning academy to ensure early training of 
super users and advocates for the program.
    Along with Booz Allen, we have a robust team in the Pacific 
Northwest hosting local workshops and implementing our change 
management plan.
    We have completed 18 of 19 roadshows to engage clinicians at each 
VISN.
    We migrated 23.5M Veterans health records consisting of 70 billion 
data records into the Cerner data center. This is the first time that 
VA data is in the same system as DoD health data.
    We are impressed with the dedication, spirit and passion of the 
providers we work with inside VA and DoD. We are humbled by the 
opportunity to be in VA Medical Centers and to interact with clinicians 
and Veterans receiving care. It reminds all of us every day why we work 
so hard on this program.
    This is personal for many of you who have served and so many of us 
who have a history of service in our families. I know it is for me. I 
think about my grandfather and the issues he suffered from upon return, 
and how health record modernization would have helped him.
    We can do this, but it will take all of us working together. On 
behalf of Cerner we are honored to be part of it.
    Thank you and I look forward to our discussion today.

                                 <F-dash>
                    Prepared Statement of Jon Scholl
    Chairwoman Lee, Ranking Member Banks, and distinguished members of 
the Subcommittee, thank you for the opportunity to provide a contractor 
perspective on modernizing health records at the Departments of Defense 
(DoD) and Veteran's Affairs. It is my privilege to represent Leidos - 
the prime contractor for the Department of Defense on the Defense 
Healthcare Management System Modernization (DHMSM) contract. The Leidos 
Partnership for Defense Health consists of four core partners. They are 
Leidos, which is the prime integrator and developer of the project, 
along with Cerner Corporation, Accenture, and Henry Schein One. The 
Leidos Partnership for Defense Health (LPDH) is complemented by 30 
businesses with expertise in commercial hospitals and the Military 
Health System.
    Together the Leidos Partnership for Defense Health is developing a 
modern, secure, connected Electronic Health Record (EHR) - called MHS 
GENESIS - that will provide a state-of-the-market, commercial-off-the-
shelf solution consisting of Cerner Millennium, an industry leading 
medical EHR, and Henry Schein One's Dentrix Enterprise, a best-of-breed 
dental record system, as well as several other commercial software 
packages that make the system work together. This team is responsible 
for helping the DoD achieve its mission of standardized care for 
Military members, higher states of readiness for our armed forces, and 
to make possible essential data and record interoperability across the 
DoD, the Department of Veterans Affairs (VA), US Coast Guard, and 
private sector providers.
    Implementing this program is complex and benefits from the holistic 
partnership and collective capabilities brought to bear by the Leidos 
Partnership for Defense Health. I am pleased to share that 
implementation is on track and on budget, and is projected to document 
health across the Military Health System (MHS) by the end of 2023.
    The Mission of Leidos is ``to make the world safer, healthier, and 
more efficient through information technology, engineering, and 
science.'' Implementing MHS GENESIS embodies that mission. For fifty 
years, Leidos has proudly served the interests of our country and 
embraced the mission of our customers. We recognize that our 
responsibilities to the DoD are great because they directly impact the 
health and well-being of our fighting forces and their families. Some 
of us who have served and raised families in the Military recognize the 
need to now replace the current system that has served us for so long. 
We are proud to be a part of this and we are committed to success.

Objective of Our Work

    Working closely with our DoD customer, the Leidos Partnership is 
committed to executing three equally important objectives: deploying 
the single, integrated inpatient and outpatient EHR; incorporating 
continuous improvement to the implementation of MHS GENESIS through 
lessons learned; and successfully transforming the delivery of 
healthcare in the Military Health System (MHS) to ensure our Service 
members receive the same standard of care no matter where they are in 
the world.

What is MHS GENESIS?

    MHS GENESIS is a healthcare transformation system designed to 
standardize the delivery of healthcare for nearly 10 million Service 
members and their families. MHS GENESIS is a collection and integration 
of products that will help the DoD and VA efficiently manage the health 
of our Service members, retirees, Veterans, and their families.
    The Defense Healthcare Management System Modernization (DHMSM) 
contract was awarded to Leidos in 2015. At present, the program is on 
schedule to be fully deployed in 2023. While there are many partners 
involved with the DHMSM program and MHS GENESIS system, the program's 
contractor team is led by Leidos. The Leidos Partnership is a team of 
proven innovators who have consistently delivered large, complex 
solutions for the DoD and VA on time and within budget for decades. We 
specialize in delivering patient and clinician-centric tools, training, 
and organizational change management support to offer high-quality 
health care technology. As one of the most experienced IT integrators 
in the federal space, Leidos was chosen as the prime integrator for the 
DHMSM program, and is responsible for the its day-to-day management and 
overall success.
    Once implemented, MHS GENESIS will seamlessly integrate patient 
records so providers spend less time managing records - and more time 
with patients. At completion, the program will have modernized the 
military's healthcare system and enabled patients and clinicians to 
capture and share health data that improves continuity and quality of 
care for all active military, their families, and their beneficiaries.
    MHS GENESIS is currently operating the Pacific Northwest at our 
Initial Operational Capability (IOC) sites. We are proud to report that 
MHS GENESIS is successfully managing more than 100,000 encounters per 
month at military treatment facilities. Children recently born at the 
OB GYN clinic at the Naval Clinic Oak Harbor in Washington State, for 
example, have an MHS GENESIS health record, and should those children 
join the military and eventually become beneficiaries of the Veterans 
Benefits Administration, they will carry the same single health record 
with them throughout their lives. If they choose to go with private 
health care, they will have an MHS GENESIS record that can be 
integrated into a commercial system at any hospital or clinic. This is 
an important differentiator from past efforts by the DoD and the VA.

Timeline

    The DoD was an early pioneer in the development of a centralized, 
global electronic medical record when it introduced the Armed Forces 
Health Longitudinal Application - or AHLTA - in 2004. At the time, the 
private sector viewed the DoD's in-house EHR solution, like the VA's 
similar system, as advancing the state of healthcare documentation. 
However, by today's standards, DoD's health information technology (IT) 
systems are dated and need replacing. As well, because DoD and VA 
installations evolved independently, the EHR systems are not designed 
to interoperate, and this must be solved. We know this is a significant 
frustration to our veterans, to the agencies, and to Congress.
    In 2013, then Secretary of Defense Chuck Hagel directed DoD to seek 
a commercial off-the-shelf software solution that would better 
integrate military health care records with the VA. This was the first 
step toward creating the single-instance program that DoD and VA are 
now working toward. This is important to highlight - a single-instance 
program is not the same as ``interoperable'', it is much better, as I 
will discuss a bit later.
    In November 2017, the Leidos Partnership for Defense Health 
initiated ``live'' operations of MHS GENESIS in Washington State at our 
initial operational capability sites, which included four military 
treatment facilities and more than 20 ancillary clinics. These IOC 
sites initiated a period of use expressly intended to operate and 
collect ``lessons-learned'' and refine implementation practices that 
can be applied to future sites. The results are impressive: in 2018, 
our pilot sites experienced a 32 percent increase in outpatient 
appointments, a 63 percent increase in new prescriptions and refills, 
and more than 4,500 duplicate lab orders were avoided - improvements 
all achieved while maintaining stable staffing levels at each military 
treatment facility.
    After gathering feedback at these sites intended to enhance the 
system for future deployment, DoD approved its deployment to the first 
wave of military hospitals and clinics, which includes Travis AFB, 
Naval Health Clinic Lemoore, Presidio of Monterey, Mountain Home AFB, 
and surrounding clinics.
    MHS GENESIS will go live at these locations in September 2019.
    We cannot over emphasize how important DoD's intentional and 
methodical approach to implementing, learning and improving is to 
successfully rolling out MHS GENESIS. Implementing a new platform of 
this scale and complexity requires a process with reasonable steps and 
multiple feedback loops.

What We Have Learned

    The IOC sites, which ranged in size and complexity, allowed for 
feedback to be gathered and incorporated into the refined MHS GENESIS 
deployment strategy. As of today, those four pilot sites continue to 
use MHS GENESIS to safely deliver, manage, and document healthcare - 
documenting more than 100,000 patient encounters each month.
    DoD plans to deploy MHS GENESIS by geographic region-three in the 
continental U.S. and two overseas-in a total of 23 waves. Each wave 
includes an average of three hospitals and 15 physical locations, and 
lasts approximately one year. Waves will run concurrently. This wave-
based approach allows the DoD and LPDH to take full advantage of 
lessons and experience gained from prior waves to maximize performance 
in subsequent waves. Full operational capability, to include medical 
and dental facilities worldwide, is scheduled to be completed by the 
end of 2023.
    We acknowledge that the IOC go-live effort was not flawless - but 
its intended purpose was achieved - and that was to identify areas for 
improvement and set course corrections to address issues prior to full 
deployment. This may be the most important lesson of the pilot, which 
is that learning is constant and incorporating those lessons as the 
system is developed will make the implementation of MHS GENESIS that 
much more of a success. And I would again emphasize that the initial 
pilot sites are successfully using the system and improving healthcare 
outcomes though its use.
    I'd like to provide you with a quick overview of some of the 
insight we gained from the IOC implementation. They include: improved 
training, necessary infrastructure investments, and change management 
across military treatment facilities.

Training

    Our partnership has refined its training approach through three 
fundamental changes to the overall strategy. First, workflow adoption 
in key areas is being trained in advance of MHS GENESIS deployment and 
being led by the functional community. Second, training is being 
tailored to focus on role-based workflows that teach the user how to 
perform key tasks using MHS GENESIS. Third, the health system utilizes 
proven commercial best practices that deliver team-based training and 
just-in-time training during and after the system goes live.
    Our pilot deployments provided critical insight on the importance 
of defining user roles and assigning targeted curriculum using a 
scenario and workflow-based approach, thus ensuring the training 
technical environment is in sync with the production environment.

Infrastructure

    Highly-reliable hosting services are fundamental to enabling the 
delivery of MHS GENESIS. The Leidos Partnership has worked closely with 
DoD technical and cyber threat management leadership to build, deliver, 
and protect hosting services capable of storing personal health 
information and enabling the delivery of effective care.
    Hosting services must be connected to each military treatment 
facility with high-speed/highly-reliable and secure Network Services. 
The DoD's Medical Community of Interest, or MED-COI, is a virtual, 
private network that DoD is investing in to ensure each Wave delivers 
sound connectivity to patient care locations.
    Patient care workflows and services that take place within each 
treatment facility are enabled/supported with a variety of medical 
devices, lab instruments, patient monitors, imaging tools, and end-
point Electronic Medical/Dental Record access devices. Our Wave 
deployment plan includes a rigorous assessment of existing military 
treatment facilities' equipment against MHS GENESIS requirements, 
followed by ``refreshment as needed,'' which enables clinical staff to 
operate at peak efficiency and effectiveness.

Change Management

    Implementing systems is a people business and change is hard. 
Fundamentally, the technologies that this system are commercially 
available and in production in hundreds of commercial locations. 
Technically, this system, while complex, is absolutely feasible. The 
most essential challenge is a people-challenge. A program of this size 
and complexity fundamentally changes the way people perform their jobs. 
Thus, we have worked side-by-side with clinicians to better understand 
their workflows in order to design a system that makes the delivery of 
healthcare more efficient and produces better clinical outcomes.
    We have refined our deployment approach to ensure that change 
management begins on day one. Our team works with the staff at each 
military treatment facility to ensure they understand not only how 
things are changing, but also why, enabling greater ownership and 
engagement throughout the implementation process. We have developed 
enhanced materials and resources to address any gaps in order to ensure 
a smoother transition for future Waves. We will continue to refine and 
improve our process with continued feedback from each Wave deployment. 
The Leidos Partnership is fully committed to making this transition as 
seamless as possible for the Military Health community.

Joint Governance

    The FY2008 National Defense Authorization Act (NDAA) directed the 
creation of an interagency program office for the DoD and VA. The DoD/
VA Interagency Program Office (IPO) was established to lead EHR efforts 
between the DoD and VA to improve the quality of healthcare, improve 
clinical and patient experiences, and increase interoperability among 
the Departments and the private sector.
    Ultimately, it was the lack of standardization between the 
Departments' policies that inhibited the ability of the DoD and VA to 
implement the technologies available at the time and define long-term 
success. Joint leadership and consensus is fundamental to the ability 
to deliver a single, seamlessly integrated electronic health record.
    Earlier I mentioned the importance of having a single-instance for 
health records keeping. Rather than having two separate systems, as DoD 
and VA have historically had, and have them ``interoperable'' in that 
they can read one another's data, MHS GENESIS is intended to be one 
instance, or one record used across both agencies. I used the example 
of a baby being born at Oak Harbor earlier - that is single instance. 
That child will have one record throughout their life, so long as they 
are in the defense health or VA systems. So in order for this to 
succeed, both programs must be near identical to allow for seamless 
transition of information and data.
    To that end, on September 28, 2018, the Secretaries of Defense and 
Veterans Affairs signed a Joint Commitment Statement pledging to align 
VA and DoD strategies to do just that - to implement the same MHS 
GENESIS system. In response to this commitment, the DoD and VA 
evaluated program dependencies such as infrastructure, incorporation of 
clinical and business processes, and other requirements from the 
functional, technical, and programmatic communities. The DoD and VA 
leadership determined that the optimal and lowest risk alternative was 
to re-charter the DoD/VA IPO into the Federal Electronic Health Record 
Modernization (FEHRM) Program Office.
    The FEHRM, which is intended to incorporate key members of the IPO, 
as well as DoD and VA program office staff, will provide a more 
comprehensive, agile, and coordinated management authority to execute 
requirements necessary for a single, seamless integrated EHR. 
Leadership commitment and alignment is critical to drive change. This 
is especially true when deploying a single, integrated inpatient and 
outpatient EHR, while standardizing enterprise-wide workflows across 
more than 400 military treatment facilities. While the scope of our 
mission remains unchanged, the scale will continue to grow and we are 
prepared to deliver.
    We believe the key to success is to empower the FERHM to make 
decisions that ensure the joint requirements are in place for both the 
DoD and the VA.
    We believe this program office should be small, nimble, and they 
should be an arbiter of key decisions, not an overseer of each program. 
In other words, the FERHM should not be tasked with delivering a 
product, but rather driving requirements that are universal across DoD 
and VA.

Commitment to Protecting Patient Data

    An essential priority is keeping patients safe and protecting their 
personal data. This principle guides the implementation of MHS GENESIS. 
We work closely with the MHS community to continuously refine and 
enhance the system to meet the needs of the military health community 
based on ongoing, real-time feedback from the testing sites (Fairchild 
Air Force Base, Naval Health Clinic Oak Harbor, Madigan Army Medical 
Center, and Naval Hospital Bremerton).

Closing

    The Leidos Partnership for Defense Health team collectively brings 
decades of experience implementing healthcare IT solutions in the 
federal space. Together, we have the experience and know-how to deliver 
a project of this magnitude through to completion.
    In closing, I would like to share a quote from Vice Admiral Raquel 
Bono who said, ``We have the potential to create the very best 
healthcare system ever, not just for the military, but for the United 
States, our Nation, and across the world.'' Leidos and its partners are 
confident in our ability to make that vision a reality, by implementing 
the integrated electronic health record system - MHS GENESIS - across 
the military health community by the end of 2023. On behalf of the 
Leidos Partnership for Defense Health, I promise we are committed to 
honoring this noble mission. Thank you and I look forward to your 
questions.

                                 <F-dash>
                  Prepared Statement of Richard Crowe
    Good afternoon, Chairman Lee, Ranking Member Banks, and other 
Members of the Subcommittee. I am Richard Crowe, an Executive Vice 
President at Booz Allen Hamilton and the Client Service Officer for 
Booz Allen's Health Account. In that role, I lead a diverse portfolio 
of health services matters, including IT and healthcare operations 
service contracts, to include our EHRM Electronic Health Records 
Modernization (ERHM) program management support contract at the 
Department of Veterans' Affairs. I am pleased to be here with you today 
in my capacity as the head of Booz Allen's Health Account to discuss 
Booz Allen's role as an EHRM program management support contractor.
    Booz Allen has a strong, demonstrated commitment to serving our 
nation's veteran population. Booz Allen was founded by a veteran, and 
the company has continuously supported the Department of Veterans 
affairs since 1952. Booz Allen takes great pride in our 65-year history 
of supporting veterans, which we do in multiple ways. Approximately 30 
percent of our over 25,000 employees are military-connected - meaning 
they are veterans, in the National Guard, or military spouses - and 
Booz Allen invests in helping our military connected employees thrive 
through career building, best in class benefits, formal programs for 
military spouse support, and support to the military and veteran 
communities through innovative and impactful nonprofit partnerships. We 
are committed to the Department of Veterans Affairs' mission to serve 
our Nation's veterans.
    The VA contract that brings me before the Committee today is Booz 
Allen's contract to provide Program Management Office (PMO) support for 
the VA's planning for and implementation of the overall EHRM solution. 
This testimony summarizes what we do under that contract, who we do it 
for, and what our role is relative to the other contractors supporting 
EHRM implementation.
    What we do. As the Committee is aware, the VA Office of Electronic 
Health Record Modernization (OEHRM) is overseeing the implementation of 
a new electronic health record (EHR) system to be used across the VA 
healthcare enterprise. It is common for large EHR implementation 
contracts to have a significant PMO, because preparing to go live with 
a new electronic health record system is a complex undertaking. 
Ensuring the continuity and safety of health care delivery is a main VA 
priority and, as the PMO support contractor, we support the VA's 
efforts to better serve and honor the men and women who are America's 
veterans.
    Speaking generally, a PMO support contractor provides the surge 
staffing, resources, and tools, as well as management, engineering and 
governance expertise, to provide additional resources to a government 
program office to augment the government's own capabilities at the 
government's direction. EHRM PMO support contractors allow the 
government to obtain specific skills relevant to the EHR implementation 
at the relevant stage of the implementation process and in a time-bound 
manner. For example, we have engaged a number of individuals with 
Cerner technical expertise (i.e., experience implementing the Cerner 
product as implementation consultants or users of prior EHR 
implementations), as well as clinicians to support the VA in its review 
and execution of key implementation tasks in preparation for initial 
operating capability (IOC). By engaging such individuals on a temporary 
basis during implementation, we provide the specific personnel when the 
VA directs, and the VA is able to reduce its overall long-term spend. 
We also equip the VA with key resources and tools for identifying, 
tracking, and managing risks identified across each of the main PMO 
workstreams. PMO contractors provide key assistance to implementing 
organizations as those organizations work to convert enormous projects 
into discrete, actionable, trackable, and measurable tasks. The VA's 
use of such a PMO support contract is consistent with other commercial 
and governmental EHR implementations, to include the DoD's EHR 
implementation.
    Who we do it for. Booz Allen is working at the direction and 
supervision of the VA under a time and materials contract. In that 
role, our job is to respond to a range of VA taskings required for 
successful ERHM implementation. We do not have our own independent 
development scope nor responsibility over deployment and implementation 
tasks. The actual development and integration are being undertaken by 
Cerner.
    Substantively, the VA determines the support it needs from Booz 
Allen and closely directs our efforts. Those efforts include providing 
program management, administrative, functional, technical, and 
logistical support to the EHRM Program Office as required under our 
contract's Performance Work Statement.
    Structurally, our team mirrors the VA PMO team in that we are 
organized into workstream pillars. For each of those functional areas, 
the government workstream lead is paired with a Booz Allen workstream 
lead who assists their government counterpart. Booz Allen works at the 
direction of the government workstream lead with the approval of the 
Executive Director for VA Electronic Health Records Modernization and 
our Contracting Officer's Representatives (COR). The primary 
workstreams focus on assisting the Chief Medical officer, the 
Technology Integration Office, and Program Control. Additionally, we 
have staff located near the IOC sites as part of the Command Action 
Team (CAT) as a local extension of the broader PMO support.
    Our role relative to Cerner. Booz Allen's work is distinct from 
Cerner's. Cerner is the principal contractor and is the technical. 
While we have some interaction with Cerner in our PMO support role, we 
do not direct Cerner. We support the VA's oversight role. There is no 
contractual relationship between Booz Allen and Cerner, and we do not 
have any technical or implementation responsibility over Cerner's scope 
of work.
    Thank you for the opportunity to testify before the Subcommittee 
today. I look forward to your questions.

                                 <all>
</pre></body></html>
